<html>
<title> - EMPOWERING WOMEN ENTREPRENEURS: UNDERSTANDING SUCCESS, ADDRESSING PERSISTENT CHALLENGES, AND IDENTIFYING NEW  OPPORTUNITIES</title>
<body><pre>[Senate Hearing 113-593]
[From the U.S. Government Publishing Office]




                                              S. Hrg. 113-593

                    EMPOWERING WOMEN ENTREPRENEURS:
                         UNDERSTANDING SUCCESS,
                   ADDRESSING PERSISTENT CHALLENGES,
                   AND IDENTIFYING NEW OPPORTUNITIES

=======================================================================

                               HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2014

                               __________

    Printed for the Committee on Small Business and Entrepreneurship


         Available via the World Wide Web: http://www.fdsys.gov
         
                                   ______

                       U.S. GOVERNMENT PUBLISHING OFFICE 

89-448 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
       
       
         
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED THIRTEENTH CONGRESS

                              ----------                              
                   MARIA CANTWELL, Washington, Chair
                 JAMES E. RISCH, Idaho, Ranking Member
CARL LEVIN, Michigan                 DAVID VITTER, Louisiana
MARY L. LANDRIEU, Louisiana          MARCO RUBIO, Florida
MARK L. PRYOR, Arkansas              RAND PAUL, Kentucky
BENJAMIN L. CARDIN, Maryland         TIM SCOTT, South Carolina
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KAY R. HAGAN, North Carolina         MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota         RON JOHNSON, Wisconsin
EDWARD J. MARKEY, Massachusetts
CORY A. BOOKER, New Jersey
                Jane Campbell, Democratic Staff Director
           Skiffington Holderness, Republican Staff Director
           
           
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Cantwell, Hon. Maria, Chairwoman, and a U.S. Senator from 
  Washington.....................................................     1
Risch, Hon. James E., Ranking Member, a U.S. Senator from Idaho..     3
Hagan, Hon. Kay R., a U.S. Senator from North Carolina...........     4
Cardin, Hon. Benjamin L., a U.S. Senator from Maryland...........     4
Fischer, Hon. Deb, a U.S. Senator from Nebraska..................     5

                               Witnesses
                                Panel I

Contreras-Sweet, Hon. Maria, Administrator, U.S. Small Business 
  Administration, Washington, DC.................................     6

                                Panel II

Corcoran, Barbara, Founder, The Corcoran Group and ABC's Shark 
  Tank, New York, NY.............................................    18
Meeder, Lori, Senior Loan Officer, Northern Initiatives, 
  Marquette, MI..................................................    24
Davis, Veronica O., P.E., Partner and Principal Planning Manager, 
  Nspiregreen, LLC, Washington, DC...............................    31

                               Panel III

Galaan, Nely, Founder, Galaan Entertainment and Adelante 
  Movement, Marina Del Rey, CA...................................    44
Wortberg, Victoria, Program Manager, Washington Center for Women 
  in Business, Lacey, WA.........................................    52
Sylvester, Susan, President and Chief Financial Officer, Absolute 
  Resource Associates, Portsmouth, NH............................    61
Sutton, Lynn, Chief Executive Officer, Advantage Building 
  Contractors, Atlanta, GA.......................................    67

          Alphabetical Listing and Appendix Material Submitted

Bennett-Santos, Cathy
    Letter dated August 6, 2014, to Chairwoman Cantwell..........    89
California Association for Micro Enterprise Opportunity
    Letter dated July 23, 2014, to the Committee on Small 
      Business and Entrepreneurship..............................    94
Cantwell, Hon. Maria
    Opening statement............................................     1
    Report titled ``21st Century Barriers to Women's 
      Entrepreneurship''.........................................   100
Contreras-Sweet, Hon. Maria
    Testimony....................................................     6
    Prepared statement...........................................     9
Corcoran, Barbara
    Testimony....................................................    18
    Prepared statement...........................................    21
Davis, Veronica O.
    Testimony....................................................    31
    Prepared statement...........................................    33
Fischer, Hon. Deb
    Opening statement............................................     5
    Questions for the record.....................................    88
Galaan, Nely
    Testimony....................................................    44
    Prepared statement...........................................    47
Levin, Hon. Carl
    Prepared statement...........................................    86
Meeder, Lori
    Testimony....................................................    24
    Prepared statement...........................................    26
Sutton, Lynn
    Testimony....................................................    67
    Prepared statement...........................................    69
Sylvester, Susan
    Testimony....................................................    61
    Prepared statement...........................................    63
Wells Fargo
    Letter dated July 23, 2014, to Senators Cantwell and Risch...    97
Wortberg, Victoria
    Testimony....................................................    52
    Prepared statement...........................................    54

 
                    EMPOWERING WOMEN ENTREPRENEURS:

                   UNDERSTANDING SUCCESS, ADDRESSING

        PERSISTENT CHALLENGES, AND IDENTIFYING NEW OPPORTUNITIES

                              ----------                              


                        WEDNESDAY, JULY 23, 2014

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:45 p.m., in 
Room 216, Hart Senate Office Building, Hon. Maria Cantwell, 
Chairwoman of the Committee, presiding.
    Present: Senators Cantwell, Cardin, Shaheen, Hagan, Risch, 
and Fischer.

  OPENING STATEMENT OF HON. MARIA CANTWELL, CHAIRWOMAN, AND A 
                  U.S. SENATOR FROM WASHINGTON

    Chairwoman Cantwell. The U.S. Senate Committee on Small 
Business and Entrepreneurship will come to order.
    Today we are having a hearing on empowering women 
entrepreneurs and understanding the successes and addressing 
the challenges of identifying new opportunities.
    I want to welcome everyone who is here in the audience 
today for this very important hearing and look forward to 
hearing from our tremendous panelists.
    Just 26 years ago in 1988 Congress enacted landmark 
legislation that established as the law of the land a woman's 
ability to establish business credit without requiring a 
signature of a male relative.
    Today our Committee is releasing a report, 21st-Century 
Barriers to Women Entrepreneurship Helping Women Break the 
Entrepreneur Glass Ceiling.
    It is also important that we make policy recommendations 
based on this report because our report shows that even 26 
years after the Women's Business Ownership Act significant 
barriers still exist for women entrepreneurs.
    The report finds that women entrepreneurs still face 
challenges raising capital for their business in the right 
amounts at the right time, face challenges of getting relevant 
business training and counseling and face challenges in getting 
equal access to compete for federal contracts.
    As Congress, particularly this Committee, looks for ways to 
help entrepreneurs strengthen our economy, we want to make sure 
that women are enabled to play a very important role.
    The National Women's Business Center reports that there are 
more than 7.8 million women-owned firms. In addition to 
providing work for the individual employers, they employ more 
than 7.6 million additional people and generate 1.2 trillion in 
total revenues.
    Between 1977 and 2013, the number of women-owned businesses 
in the United States grew by 59 percent but women-owned 
businesses still face real barriers and only make up about 30 
percent of small businesses in the United States.
    So, our Committee report shows the following things. One, 
women small business owners face challenges getting access to 
capital. The Urban Institute reports that only 4 percent of the 
total dollar value of conventional small business loans go to 
women entrepreneurs.
    Women are forced to rely on personal credit, loans from 
family and friends, high credit card rates instead of getting 
traditional bank lending. Just a tiny fraction use business 
loans from the federal, state, or local government or 
government guaranteed business loans.
    I am sure we will hear from the Small Business 
Administrator about this issue.
    I want to point out an additional study that was done by 
the Harvard Business School that tested the effect of gender in 
entrepreneurial pitches.
    The study set up an investor to hear a pitch from a male 
and female voice accompanying the picture. The content of the 
pitch was exactly the same. The only difference was the gender 
in delivering it.
    The study found, quote, a strong gender gap in how the 
pitches were received. Investors chose the pitch by men 68 
percent of the time. The men used the exact same words. It was 
just a matter of who was delivering them.
    So, we want to make sure we flatten any barriers.
    Second, women-owned businesses still face challenges in 
getting loans in the right size and the right amount of 
business counseling. Women-owned businesses secured more than 
50 percent of our microloans that we make which are $50,000 and 
under, and we have had great success from our colleague Senator 
Levin in supporting an intermediate loan program.
    The bottom line is we need financial----
    [Pause.]
    That was a dramatic pause for this statement.
    [Laughter.]
    Okay. Are you ready for it?
    We need financial products that are tailored to meet the 
needs of women entrepreneurs of the 21st-century. Women-owned 
businesses need to have more access to credit. The small 
business microloans program is helpful and the intermediary 
loan program which is designed to help in the gap between $50- 
and $200,000 has proven to be very beneficial.
    The report acknowledges the success of this SBA 
intermediary loan program and the work that was done in the 
Small Business Job Act. We want to take that from a pilot 
program to a permanent program.
    The third point of the report, the Committee finds that 
women entrepreneurs face challenges in getting relevant 
business training counseling. Although the Women's Business 
Centers, which are well represented here today, were created by 
the women's Business Act of 1988 to specialize in counseling 
and training for women-owned businesses, they have not been 
reauthorized since the 1990s and funding has been flat since 
the 1990s, something that we have to change.
    Fourth, the Committee report shows that women business 
owners still face challenges in getting equal access to federal 
contracts. The U.S. government has never met its modest goal of 
awarding 5 percent of federal contracts to women-owned 
businesses. If they did, women-owned businesses would have 
access to market opportunities up to an additional $4 billion 
annually. So, the report proposes changing the federal law to 
give women-owned businesses the opportunity to sole-source 
federal contracts.
    I want to thank all of my colleagues for being here today 
to listen to these witnesses and to hear from women 
entrepreneurs about the report and about these proposals.
    Now, I would like to turn to my colleague, Ranking Member 
Risch for his opening statement and thank him for being here 
today and helping with this session.

  OPENING STATEMENT OF HON. JAMES E. RISCH, RANKING MEMBER, A 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Well, thank you very much, Madam Chairman.
    As you and I have agreed and a number of times, issues 
facing small business, the small business community is not a 
partisan matter. It is bipartisan. It is nonpartisan, and we 
are doing our best to pull the wagon together to see that we 
resolve issues that wind up being barriers for small businesses 
and.
    I want to thank you, Madam Chairman, for holding this 
hearing and we want to always and continually examine any 
barriers there are to loaning to women. Any gender bias has no 
place whatsoever in the lending process.
    As far as your remarks and observations regarding the 
training for women, we have in Boise, Idaho, a Women's Business 
Center ably led by Shari Herrera, who is here with us today, 
and these are the kinds of things that are very helpful for 
women businesses around the country.
    So, with that, I want to welcome the Administrator, Ms. 
Contreras-Sweet. We are delighted to have you. The small 
business community certainly is at a great advantage when the 
President appointed you to be the Administrator.
    So, we are glad to have you with us today and with that, 
Madam Chairman, I am anxious to hear the witnesses.
    Chairwoman Cantwell. Thank you very much.
    I want to give my colleagues Senator Hagan and Senator 
Cardin and Senator Fischer any chance they want to make an 
opening statement.

  OPENING STATEMENT OF HON. KAY R. HAGAN, A U.S. SENATOR FROM 
                         NORTH CAROLINA

    Senator Hagan. Thank you, Chairman Cantwell.
    This is obviously a very important hearing just by seeing 
the number of people here today and hearing the number of women 
and their very, very interesting backgrounds and stories. So 
one, thank you very much for holding this hearing.
    To really highlight the obstacles that our female 
entrepreneurs face when trying to access Small Business 
Administration financing and to come before Federal Government 
contracts, this is incredibly important.
    Thank you also for the excellent report that details ways 
to address this problem. I also want to thank our SBA 
Administrator for being here.
    I do want to recognize Ms. Briles Johnson, who is with us 
today. She is the Director of the Women's Business Center of 
North Carolina. Recently the SBA honored the Women's Business 
Center in my State as a Women's Business Center of Excellence 
for 2014. I want to congratulate Ms. Johnson.
    Thank you.
    [Applause.]
    And for the Women's Business Center for receiving this 
well-deserved recognition, the counseling, the training, and 
the resource that our centers provide. They have a long track 
record of helping women-owned businesses to grow and create 
jobs.
    Thank you, Chairman Cantwell, for holding this important 
hearing and I look forward to the testimony from all of today's 
witnesses.
    Chairwoman Cantwell. Thank you. Thank you very much.
    Senator Cardin.

 OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, A U.S. SENATOR 
                         FROM MARYLAND

    Senator Cardin. Madam Chair, let me thank you and, Madam 
Administrator, thank you for being here and we thank you for 
your leadership on behalf of the small business community.
    We use this room when we have a very important hearing. It 
is the largest hearing room in the United States Senate, and I 
think it is appropriate that this hearing today is dealing with 
small business and opportunity for women in small business.
    So, it is appropriate that you are here and it is 
appropriate that the subject is being taken up by our Chair and 
thank you very much for arranging this.
    I want to welcome the Marylanders who are here. I know 
there are a lot in the room.
    [Applause.]
    This is an enthusiastic group.
    First and foremost, this subject of opportunity for women-
owned businesses is about the values of America, what we 
believe in. We believe in equal opportunity for all citizens. 
Therefore, we know about historical discriminations, about 
women being able to compete, held down by a lot of bias in our 
community and opportunities.
    It was right for us to set up programs and to provide the 
tools necessary so that women did have a fair opportunity. I 
appreciate very much the report by our Chair that was released 
today because that shows we have made some progress but not 
enough progress, that there is still a road that we need to 
travel.
    The second thing we do this for is our country. When women 
have full opportunity, our country does much better and our 
economy grows and we all benefit from it. So, it is in our 
economic interests.
    There may have been a day where the United States could say 
we did not have to operate on all cylinders and we still could 
compete, but we know globally today that we have to be at our 
best.
    Therefore, it is critically important that we have your 
creativity and innovation that comes out of small businesses so 
that we can answer the challenges of today's marketplace.
    So, I think this is an extremely important hearing and I 
thank the Chair for convening it and I really do look forward 
to the witnesses to help us chart a future for tomorrow that 
will be brighter than today and help all of our women.
    Thank you.
    [Applause.]
    Chairwoman Cantwell. Thank you very much.
    Senator Fisher.
    I wanted to say I am so enthusiastic with everybody being 
here. Anyway.
    Senator Fischer.

  OPENING STATEMENT OF HON. DEB FISCHER, A U.S. SENATOR FROM 
                            NEBRASKA

    Senator Fischer. Thank you. I would appreciate applause as 
well.
    [Applause.]
    Thank you, thank you very much.
    Thank you, Chairwoman Cantwell, and Ranking Member Risch 
and thank you, Madam Administrator, for being here.
    This is a very exciting time for our country. This is a 
very exciting hearing that we are having today because it is 
going to give us an opportunity so we can focus on those 
pressing issues that female entrepreneurs face.
    You know, if America is going to achieve a robust and a 
very full recovery, American businesswomen will be the ones 
playing an important role in that.
    I introduced recently a microfinance bill which I think 
will help not just women entrepreneurs but all Americans in 
helping small businesses to grow and to be able to work with 
our Small Business Administration in strengthening our economy.
    I would like to thank all the witnesses for joining us 
today and I look forward to hearing you share your expertise 
with this Committee.
    Thank you, Madam Chair.
    Chairwoman Cantwell. Thank you very much.
    [Applause.]
    So, not to cut anybody else off from applause recognizing 
that hearing decorum is to refrain, but you guys have done such 
a good job. So hopefully that has expressed your enthusiasm; 
and if we could just go through the rest of the hearing as a 
normal process without outburst will be great.
    Ms. Contreras-Sweet. Oh, darn.
    [Laughter.]
    Chairwoman Cantwell. And then at the end of all of it, we 
can cheer as loud as we want. How about that?
    So anyway, I want to thank the Administrator for being here 
today. She will be our first witness. And as a former 
businesswoman herself and banker, she is going to talk about 
the importance of the SBA and women in small business. After 
that we will follow with two different panels.
    But again, Administrator Contreras-Sweet, we thank you so 
much for joining us.

 STATEMENT OF HON. MARIA CONTRERAS-SWEET, ADMINISTRATOR, U.S. 
         SMALL BUSINESS ADMINISTRATION, WASHINGTON, DC

    Ms. Contreras-Sweet. Thank you, Chairwoman Cantwell and 
Ranking Member Risch, Ms. Fisher, Mrs. Hagan, and Mr. Cardin. 
It is so nice to see you once again. I want to thank you all 
again for helping me get through the confirmation process. I am 
now approaching or I have just exceeded my 100th day but there 
is so much more to get done.
    I thank you for the opportunity to testify today about the 
SBA's work to empower women entrepreneurs. We all know that one 
in three of the jobs are created in America by the small 
business community. Small business has employed one half of the 
private workforce.
    Women-owned businesses in that are growing at an 
unprecedented rate. More than one in four U.S. companies is old 
or led by a woman and these firms employ more than 7.8 million 
Americans.
    While those statistics are an indication of progress, women 
still do not have equal access to economic opportunity. Senator 
Cantwell, as your report demonstrates and my life experiences 
informs me, there is still so much work to be done.
    Women remain underrepresented in the C-suite. Women have 
difficulty accessing capital and they faced barriers in winning 
contracts. It is critical that everyone in this room and across 
the Nation commit to clearing these obstacles to enable our 
country to reach its very full potential.
    Twenty-six years ago Congress passed the Women's Business 
Act. It was a watershed achievement because it allowed women to 
get business credit without the signature of a male partner or 
a relative.
    I experienced that discrimination personally. So, this is 
very personal to me. Congress recognized that women are 
builders, building businesses, building jobs. Now, it is up to 
us to ensure that the next generation of women can build their 
entrepreneurial dreams.
    We all have a shared responsibility to champion diversity 
and workplace flexibility to help women succeed. We must give 
women the choice to be what their skills and hearts desire, be 
it a homemaker who stays home with the kids or a homemaker who 
owns the construction company that is building the next 
residential development.
    The SBA is deeply committed to fostering economic 
opportunity for women. Through our work in the area of 
accessing capital, counseling, and contracting opportunities, 
we can do much work.
    Since 2009, SBA lending from women-owned businesses has 
gone up 31 percent across our three lending platforms. That is 
the 7(a), 504, and microloans. In America, gender should never 
impact whether you can get a loan; only your creditworthiness 
should.
    Last month, I announced an effort to simplify and 
streamline SBA underwriting to attract more lending partners 
and broaden access to capital for women. No excuses for the 
financial institutions.
    Effective this month, SBA's new credit scoring model is 
going to be helping us provide more equitable access to 
capital. Our Office of Women's Business Ownership helps 
entrepreneurs start and grow their business and compete in 
global markets. We oversee a network of more than 100 Women's 
Business Centers nationwide, many of them represented here 
today. These centers provide valuable, insightful management 
and technical assistance, especially to the socially and 
economically disadvantaged.
    Our WBCs are doing extraordinary work. Since 2009, more 
than two million women have received assistance through these 
centers and SBA. Those who receive our assistance are more 
likely to start a business and successfully secure financing 
critical to growth.
    We are opening doors to more women entrepreneurs to compete 
for federal and commercial contracts. We are aggressively 
promoting in the women-owned small business contract program 
through our ChallengeHER events.
    I saw this program in action in Boise, and, Senator Risch, 
thank you for being such a wonderful and gracious host. It was 
rewarding to see how some of Idaho businesswomen have grown 
their companies through this program.
    Nationally, women entrepreneurs still receive less than 5 
percent of federal contracts, however. So, I am accelerating a 
study of industries in which women-owned businesses are 
underrepresented in federal contracting. Women entrepreneurs 
are now considered underrepresented in only 83 of 260 
industries. Our study will examine whether this number should 
be adjusted.
    I urge Congress to approve sole-source contracting 
authority for women-owned businesses which would put them at 
parity with HUBZone and service-disabled veteran-owned 
businesses. When we empower women entrepreneurs, we are also 
lifting millions of workers that they employ.
    In June, I participated in a White House summit that 
brought together women leaders and workers from across the 
country. It was inspiring to hear their commitment to offer 
innovative benefits and flexible workplaces to attract and 
retain the best possible talent to their companies.
    Our workplace policies must be adaptive to the reality that 
both parents in a majority of American households are now 
working. More than 40 percent of mothers are now the sole or 
the primary breadwinner in their household, but many cannot 
access flexible hours, paid leave, job sharing, and other 
worker-friendly policies, allowing them only one other choice, 
to start their own business. We must build business ownership.
    When women are able to ascend to leadership positions, they 
can apply their experiences to support all business owners, not 
just women. We need more women in the boardroom and in private 
equity making investment decisions that drive business growth.
    We need more women in banking to help entrepreneurs access 
capital and financial counseling in order to build business 
ownership and more jobs, and we need more women as senior 
procurement executives in the contracting space to help the 
government meet and maybe even exceed its small business 
targets.
    I have seen how diversity begets diversity. There is no 
substitute for having a seat at the table. As the SBA 
Administrator, I want the letters now for SBA to stand for 
smart, bold, and accessible.
    We must use smart systems to remain current and be 
responsive with technological advances. We must be bold and 
allow for new markets for small businesses to be promoted, and 
we have to be accessible, inclusive to all.
    I am passionate about using all of the tools of my office 
to help America realize the benefits of women's intellectual 
capital, insight and ingenuity. Again, SBA will now stand for 
smart, bold, and accessible.
    Fifty years ago was the passage of the Civil Rights Act. 
Martin Luther King said, what is it, what is the value of being 
able to sit at an integrated counter if you cannot buy the 
hamburger.
    With the SBA now, we can not only buy the hamburger. We are 
helping women buy the restaurant
    [Applause.]
    Thank you so much for holding this August group together so 
that we can continue to learn and continue to be responsive at 
the SBA. Thank you for allowing me to share my views, and I am 
happy to answer any questions you have.
    [The prepared statement of Ms. Contreras-Sweet follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairwoman Cantwell. Thank you, Administrator Sweet, and 
thank you for your testimony.
    I want to start with talking about the senior contracting 
positions within the government. One thing I very much 
appreciate is that the President has elevated your position to 
a cabinet level position. So, do you get to look your peers in 
the eyes and say why have you not met this 5 percent goal?
    What do you think it takes, obviously we are going to 
pursue a sole-source contract position, but you could outline a 
few things. If you could expound on how you think that the 
senior contracting officials could help this process.
    Ms. Contreras-Sweet. One is just, thank you for pointing 
out that the President elevated this position so I now get to 
sit at the table across from DOD and DOE and every other 
department and we have collegial conversations about this.
    But what I want to tell you is again from the top when the 
President says that this is a priority, it heralds all the way 
through the agency.
    So today my buying officers at key buying activity centers 
are waging, you know, their voice and speaking out loudly, very 
ardently. We have challenged, we have already challenged many 
instances where we think that the opportunity could have gone 
to a small business.
    We need to continue to make certain that our business 
counseling centers, when I talk about smarter systems, Senator, 
I also think that it is important for us to make sure that the 
counseling programs are systematized so that women can 
understand how to go about the process.
    The other point that I am really delighted to see is that 
the President passed prompt pay in 15 days because so many 
times women would say I want to get the work but once I get the 
work I cannot afford EBITDA, the cash flow.
    So, with the 15-day program, we are now able to get more 
women into the pipeline. Just last week we announced a 
concomitant program called the Supplier Pay Program where we 
now have challenge the private sector to match the goals that 
we have in government. I was pleased to say that already 28 
corporations have signed up to follow the government lead.
    Chairwoman Cantwell. So, you think it is just getting the 
right people in these positions who are knowledgeable that we 
need to meet this goal?
    Ms. Contreras-Sweet. I think it is the counseling so that 
women know how to navigate through the labyrinth of government. 
I think it is the access to capital and that is why we have 
zeroed out fees for loans under $150,000 through the Community 
Advantage Program.
    It is why we put in the total SCORE program that allows us 
for loans under $350,000 to expedite and streamline the process 
for which to get capital and I think it is again getting the 
word out about contracting opportunities.
    I am delighted to see Barbara Corcoran here because I think 
she can help brand and expand the knowledge and awareness about 
these opportunities. So many women do not have a rich uncle 
that can open the door. SBA has got to be their Uncle Sam who 
is going to open that door.
    Chairwoman Cantwell. Tell me about your view on why those 
microloans at $50,000 are so important. I am almost asking you 
now to put your banker hat back on for a second.
    Do you have a viewpoint about why both the intermediate and 
the $50,000 loan is such a critical thing to women's 
businesses?
    Ms. Contreras-Sweet. When you are starting a business, you 
just want to begin to build your plan, to hire up your work 
team. Even when I started my own bank, you know, I did not need 
the $50 million on day one. I needed to get there 
incrementally.
    So just to begin to seed your plan and get your materials 
together, you need that first small loan. Large institutions, I 
can share with you as a banker, when I would give my lenders a 
goal of say $15 million a year, their interest was in putting 
out three $5 million loans.
    When I said to them, you are going to get to the $15 
million by $50,000 increments, they were loath to do it because 
of the underwriting, the technical assistance, the servicing of 
the loan. It takes just as much effort to do a $50,000 loan and 
in some instances the paperwork is not as defendable, as 
reliable as audited financials of a larger institution.
    So, for asset quality reasons and others, banks are 
reluctant. That is why I think the technical smart systems that 
we are putting in place will be more effective.
    And so, women want that initial seed capital to just begin 
and they want it at competitive rates. That is why with SBA, so 
that is one point.
    Another point is that the reason we are having so much 
success with now the microloans, 40 percent of our loans are 
going to women so already we see the trajectory, the upstream 
in that program; and it is because we have technical assistance 
in those programs.
    We need to make certain that our counseling centers 
continue to provide technical assistance all the way up the 
ladder of the credit pipeline.
    Chairwoman Cantwell. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Madam Chairman.
    Administrator, thank you for the passion and the enthusiasm 
you bring to the job.
    Madam Chairwoman, we have a lot of witnesses to get to and 
I will have some questions but I will submit them for the 
record and so I will yield back my time.
    Thank you so much for being with us today.
    Ms. Contreras-Sweet. Thank you.
    Chairwoman Cantwell. Thank you.
    Senator Cardin.
    Senator Cardin. I will try to follow Senator Risch's model 
of brevity but I do want to ask you a question as it relates to 
the tools that are available.
    You mentioned the microloan program and 40 percent you just 
said go to women. We have the Women's Business Centers which 
have been in existence now for some 25 years. You mentioned 
sole-source as an area to increase opportunities for women-
owned businesses.
    Could you just tell us what you think the most important 
tools that you have currently under the SBA that could be 
strengthened that could help improve the numbers in regards to 
loans and into contracts and startups for women-owned 
businesses?
    Ms. Contreras-Sweet. I think, depending on the stage of, 
you know, whether it is a small-cap, mid-cap, large-cap 
business, depending on the stage, there are different solutions 
for them.
    But the common denominator, Senator, is that I do not think 
that the public is fully aware of the fullness of the SBA 
programs that you have all created here.
    So not only do we have an answer at every intersection of 
capital need, we also have, for example, when you go to bid for 
a contract, Mr. Senator, often times what they need is a surety 
bond. They need a performance bid or a bid or performance bond. 
The SBA also has that.
    Sometimes women do not have enough to collateralize the 
loan. The SBA has private equity through our SBIC programs, and 
sometimes women want to invent something and the SBA has the 
SBIR program and the STTR which is the small business 
transferred technology with the colleges and universities.
    But it does not matter how many times I say that. I need 
for all of you. I need for everybody in the room to elevate the 
conversation and to help get the word out because I think that 
if more of us knew, more of us would be partaking, and America 
would win.
    Senator Cardin. Well, I agree with you. This Committee was 
responsible for increasing the limits on the surety bonds and 
the SBIR program was reauthorized. There are a lot of tools 
that we have dealt with and we have done it to help small 
businesses.
    But we want to make sure women get their attention in 
regard to each of these programs, and I think your testimony 
here today indicates that the range of tools that are available 
can help various women-owned businesses but they need to know 
about it and they need to engage early.
    You do provide technical assistance through the Women's 
Business Centers. Do you have enough resources there?
    Ms. Contreras-Sweet. I am always happy to take more so I 
will never argue but I want to tell you one thing about the SBA 
and that is the return on investment.
    Taxpayers can be proud about the value that they are 
getting out of the SBA. When you consider that our brand 
product, the 7(a), is at zero subsidy and when we note that the 
504 which is the second in demand is tapering down in terms of 
subsidy, I am heartened that these programs are paying for 
themselves increasingly so and providing the great return on 
investment.
    Senator Cardin. Thank you.
    Thank you, Madam Chair.
    Chairwoman Cantwell. Thank you.
    Senator Fisher.
    Senator Fischer. Thank you, Madam Chair.
    Thank you again, Madam Administrator. It is so good to see 
you and I do appreciate your enthusiasm that you have for your 
job.
    Recently the Women's Chamber of Commerce released a report 
that states that almost half of the firms that have self-
certified in the women-owned small business contracting program 
were found to be fraudulent. I find that very concerning.
    I want to make sure that we are out there helping the 
people who these programs are designed to help. Have you seen 
that report and what would be your response to that?
    Ms. Contreras-Sweet. As a businesswoman, I take fraud and 
abuse, waste and abuse very, very seriously. So, any time I see 
anything like that it is disconcerting.
    But what I can tell you is that the women business owners 
themselves are engaged. There is self-policing involved, and 
the numbers, Senator, that we see, when you think about the 
millions and millions of transactions that are taking place and 
the de minimis number that that report indicates, I can assure 
you that the system is not broken.
    Senator Fischer. Thank you. Also at your confirmation 
hearing I asked about a time line for the confirmation, the 
nomination, of a deputy director. Where is that process headed 
now?
    Ms. Contreras-Sweet. Thank you. And I shared with you that 
I wanted a certain skill set, and I still feel that that is 
true.
    It is one thing to talk about the policies, and I am 
grateful for the good programs that you put in place. It is 
another thing to execute them.
    And so, I think it is important that I have a team partner 
that is able to execute and operationalize the programs and 
even below the line metrics. I am very much about performance 
management and accountability.
    So, in that regard I am delighted to tell you that I have 
been interviewing and I am heartened by those outcomes.
    Senator Fischer. Oh, wonderful. I look forward to meeting 
the person who is going to be your partner in that. Also in my 
introductory comments, I mentioned a microfinance, a microloan 
bill that I introduced called the Access Act.
    It deals with raising that threshold from $50,000 up to 
$100,000 for the small businesses so people can access that. I 
think it would help more and be more realistic in meeting 
operational expenses, business expenses that small business 
people face and that the SBA can certainly help with.
    Have you had a chance to look at that wonderful bill that 
is out there and maybe give an opinion on it? Do you think that 
that limit really should be raised, $50,000 for operational 
expenses, and to get a big business going or a small business 
going, that is kind of tough, do you not think?
    Ms. Contreras-Sweet. Thank you, Senator. I am always happy 
to have more tools and so I am always, you know, encouraged by 
your interest in providing us more tools.
    And as I said, this Committee can take as much ownership as 
anybody over the bounty, over the programs that we have at the 
SBA. Our work team is ready, and I think they have already 
engaged in working with you to access the opportunities and 
will continue to do so to make certain it is complementary and 
not cannibalizing to any of the products that we have in place.
    Senator Fischer. Great. Appreciate that. Thank you so much.
    Thank you, Madam Chairman.
    Chairwoman Cantwell. Well, Administrator Sweet, thank you 
so much for your testimony and your hard work.
    Oh, my colleague, Senator Shaheen is here. Do you have a 
question? Sorry.
    Senator Shaheen. That is okay, Chairman Cantwell. Thank 
you.
    Sorry to miss your testimony, Administrator Sweet. But I 
understand that you completed your first hundred days as 
Administrators so thank you very much for taking on this task, 
and clearly we have a lot of support in this audience with all 
of these women-owned business owners and supporters of the work 
of the Small Business Administration.
    I understand that you recently stated your support for 
providing sole-source authority for a women-owned small 
business contracting program.
    I wonder, obviously this is something that I think is long 
overdue. I have legislation that would address this. I wonder 
if you could talk a little bit about how you think this might 
help us meet our 5 percent of contracts to women-owned small 
businesses, the goal that SBA and we have for providing 
business to women-owned small businesses.
    Ms. Contreras-Sweet. Thank you for your leadership. I 
thought it was terrific to see you introduce that legislation. 
So, thank you for doing that.
    It is important. If I can just take you down to the 
granular. When a buying officer is at a buying activity center 
and they conduct some research and find that there is a woman 
that is uniquely qualified to do that work, this would allow 
them to go and get that woman and get her on the job to fulfill 
that contract immediately without having to go through an 
arduous process and, you know, having the paperwork to complete 
that and go through a competitive process.
    And so, it is another important tool and it just puts women 
on par with the veteran-owned programs and our HUBZone 
programs. So women deserve parity in that regard.
    Senator Shaheen. Well, thank you. Hopefully we can move 
that legislation as part of the Chairwoman's package for women-
owned businesses.
    Thank you. That is all.
    Ms. Contreras-Sweet. I just wanted to say, Chairwoman, I 
know you were about to turn my mic off, I just wanted to say 
that I am heartened by your leadership.
    I know that you and I began at the same time; and although 
I have completed my hundredth day, I know that you have too, 
and it has just been an incredible process and journey to have 
worked with you and your leadership and that you are holding 
this hearing to serve half of America's workforce.
    Remember Warren Buffett said that the reason he is so 
successful is he has only had to compete with half of America's 
intellect; and so, you are leveling the playing field and all 
of the Committee is for women. Thank you for that ardent 
leadership.
    Chairwoman Cantwell. Thank you. Thank you so much.
    [Applause.]
    So, we will let the Administrator go on to advocate in all 
those places and we will call our second panel. We are so 
excited to have Barbara Corcoran with us today who turned a 
$1,000 loan into a $66 million real estate business and now is 
investing in startups.
    She will be joined by Lori Meeder, a Senior Loan Officer 
with Northern Initiatives in Michigan and is involved with both 
the SBA program as well as the intermediary lending program, 
and she will be able to speak to the importance of SBA's 
microloan programs in providing capital to women and how 
important it is this intermediary step.
    They will be joined by Veronica Davis from Washington, 
D.C., who will speak about the SBA microloan program and her 
ability to acquire capital for small businesses who could not 
secure loans from traditional institutions.
    So, all of these witnesses, we are so glad to have you 
here, and we are going to start with you, Barbara. Thank you 
very much for being here, and we so appreciate your testimony.
    You just might have to punch the microphone. There is a red 
button on there so everybody can hear you.

STATEMENT OF BARBARA CORCORAN, FOUNDER, THE CORCORAN GROUP AND 
                 ABC'S SHARK TANK, NEW YORK, NY

    Ms. Corcoran. I would like to thank the Small Business 
Committee for having me here and all you guys for being out 
there. I have never seen a real Senator before.
    [Laughter.]
    I did prepare some remarks. I usually just talk off the 
cuff, but you have me intimidated like crazy so I am going to 
look at my remarks if you do not mind.
    You know, when I started my business, I was 23, and I was a 
waitress, and I got a very, very lucky break. I had a handsome 
guy walk into my counter and say you are adorable, can I give 
you a ride home. And of course, he offered me $1,000 to start a 
brokerage business simply on the basis that he said you have 
got a great personality. I bet you would be great in real 
estate sales to which I replied I have tried everything else 
why not, you know.
    If not for that $1,000 that he loaned me and he took 51 
percent of the ownership of the business from day one which he 
was entitled to, it was all his cash and I had no other option. 
I was very happy to take the money.
    If not for the $1,000, I would have never had a lucky 
break. I do not know if I would have stayed a waitress my whole 
life. I enjoyed the job. I would not have minded that honestly, 
but I do not think I would have had the amazing opportunity 
that I had no idea what was going to happen.
    So, I had that lucky break of 1,000 bucks, and that was my 
first lesson in learning how important it was to get your hands 
on some cash because a door swung open for me, and I had 
another option in life.
    When I got to New York City to open my little shop in a 
subleased space, I found that every competitor in town, huge 
companies, owned by sons of men who had started the huge 
company a century before, I found it enormously difficult to 
compete with the men, and I was particularly surprised because 
95 percent of all the women at that time probably a total of 
maybe a thousand women were the sales people in the business, 
but the entire business was owned by men. No problem.
    But I found it particularly difficult when I tried to build 
my business because I had no access to capital whereas the men 
were able to get as much money as they needed to compete with 
one another.
    So, I was kind of left on the sideline watching growth in a 
very painful way, doing what I could, but it was not so easy. 
Then thank God how heavens part sometimes, and I ran into a guy 
at a social event who was a young banker at Citibank who was a 
mama's boy, and he told me about his mother for a whole hour 
straight.
    I recognized the opportunity and hit him for a loan.
    [Laughter.]
    Hey, you get what you can, right?
    He sold that credit line for me which was a total of 
$150,000. Now picture this. I already had almost 250 
salespeople working for me. I had three offices. I was a 
respectful businesswoman. I could not get a credit line, and I 
was making a profit every month.
    But he changed all of that. Gave me the credit line and 
then the next five years I was able to take 250 people and 
build them into 1,100 people and take the number one position 
in my real estate market.
    Without that money I would have never, ever been able to 
even dream about it, never mind do it, and then my final lucky 
break having money coming in was, of course, someone offered me 
$66 million for my business. I took that money and ran like 
hell.
    [Laughter.]
    Today I sit in an interesting position on the other side of 
the fence. I am a shark investor as they call it on a new show, 
well, five years old, not so new, on ABC called Shark Tank.
    And on that show it is so odd for me to sit on the other 
side of entrepreneurs and be in charge of whether I want to 
give them money or not. I bend over backwards to give anybody 
money who seems the least bit capable, and I never worry about 
creditworthy.
    My eyes are on are they capable. If they are capable, I 
lend them money all the time, and thank God of the 32 
businesses I have lent money to, seven are clear home run hits. 
The others are losers, but the winners, as they say, make up 
for the losers.
    But an interesting thing happens on that show. I sit with, 
in most days on the show with four male investors, sometimes 
now, after Season Two, thank God, I have a second female on the 
panel, Lori Greiner, and it is interesting to always see a 
female or male come on to the set.
    I automatically know when a woman is standing on that set 
that she has got only a 50 percent shot at getting any money 
from those guys. Why? Good reasons. They all want to buy 
businesses. Nobody has an ulterior motive at all, but the way 
it goes is when they start pitching a female, they are cute. 
They always pick out pretty girls. They are well endowed. They 
always picked out a well endowed woman. So, I am not sure the 
men are even paying attention to the numbers or those numbers.
    And what happens is men cannot relate to the products women 
pitch. They go, you know, I really know nothing about fashion. 
I really know nothing about children's bicycles. I really know 
nothing about all the same things that women always know about.
    And so, only 50 percent of the women at the rate leave that 
set with money compared to double that number with all the best 
intent in a modern day show when anything goes.
    And so, I guess my point here is that I never, ever thought 
that women had a bad rap or ever felt disadvantaged ever in my 
life. I always wore my skirts higher than the guys and wore 
bright red suits to be noticed like a girl, and I had no shame.
    But what I am saying is my life experience both building my 
business and now as an investor, angel investor on and off the 
set of Shark Tank, I can tell you that women have only half the 
shot at best in any situation getting their hands on the cash.
    As talented as anybody could possibly be in whatever they 
are pursuing their dream in life, I am telling you that you 
need the cash to do it.
    So, if there is anything that you could do to make the 
Vaseline on that, you know, road of getting the money to the 
girls a little bit easier, they deserve it, not because they 
deserve anything more than the next guy but because it really 
is doubly hard to get cash. It is as simple as the reality of 
living or at least so far the life that I have lived, and that 
is it.
    Thank you for listening.
    [The prepared statement of Ms. Corcoran follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairwoman Cantwell. Thank you very much and you can see 
that not only is she talented, she is good at timing too 
because that was five minutes precisely off the top of your 
head.
    Ms. Corcoran. Oh, it felt longer.
    Chairwoman Cantwell. Thank you. Thank you so much.
    [Applause.]
    Next we are going to be joined by Lori Meeder, and I have 
to step away to vote in another Committee for a few minutes. I 
am going to ask my colleague, Senator Cardin, to take over, but 
I will be back for questions.
    So, Senator Cardin, thank you.
    Lori, go ahead.

    STATEMENT OF LORI MEEDER, SENIOR LOAN OFFICER, NORTHERN 
                   INITIATIVES, MARQUETTE, MI

    Ms. Meeder. Okay. Thank you, Chairwoman Cantwell, Ranking 
Member Risch, and Members of the Senate Committee on Small 
Business and Entrepreneurship, for the opportunity to testify 
in this hearing on ``Empowering Women Entrepreneurs.''
    I appreciate the chance to discuss the work we do at 
Northern Initiatives, which is greatly enhanced by SBA 
programs, to finance, support, and strengthen women 
entrepreneurs and other start up and growing businesses.
    I am Lori Meeder, a Senior Lender with Northern 
Initiatives. We are a non-profit Community Development 
Financial Institution, created in 1992. We provide business 
lending, investing, and technical assistance to businesses 
throughout northern rural Michigan.
    I spent much of my career in commercial banking so I have a 
good perspective from both sides of lending, both conventional 
and alternative.
    Launching and growing small businesses is essential to the 
health of our rural communities. Since we have launched its 
small business lending program in 1994, we have made over 750 
loans totaling nearly $40 million, half of which were 
microloans through the SBA microloan program. Of our total 
loans, roughly a third have been to startups, 40 percent to 
women-owned businesses, and a third to manufacturers.
    As an SBA microlender, since 1994 we have borrowed $3.7 
million from the SBA through the intermediary program and lent 
out $6.1 million. Our average loan over all of our programs is 
only $46,000. So, we are truly a microlender. We currently have 
55 SBA microloans in our portfolio right now totaling $1.2 
million.
    We truly are a microlender. A large loan for us is a half a 
million dollars. Anything above that, we utilize the USDA B&I 
program.
    We are thrilled with the community advantage 7(a) program 
that we have utilized significantly since its inception.
    The SBA is a key partner and the SBA tools to allow us to 
reach and serve viable businesses that are really outside of 
the economic mainstream. There is a significant need for 
lenders like us to have the various SBA programs that really 
can be sewn together to create and help launch businesses.
    The type of lending that we do is very vital to our rural 
communities. Everyone is not bankable. That is always going to 
be the case. Some lack cash, some do not have sufficient 
network to pledge collateral, some have had bankruptcies, and 
in rural communities it could be an unexpected illness that 
created medical expenses. It could be poor credit perhaps 
associated with a job loss, and many others just simply lack 
experience.
    Our role is to assess character, verifying the conditions 
that created the blemishes that they have and figure out how to 
help them accomplish their business growth.
    One of the things I am very proud of is our relationships 
that we have with our bankers. They understand what we do very 
well, and we work together on projects. They know what we can 
do and what we cannot do.
    We started, we have helped many businesses start that have 
then graduated to conventional banking. To me that is a real 
home run.
    I shared many stories in my written testimony about some 
examples, but I would just want to share one with you. 
Utilizing the microloan program, we helped Juli and Jody Sauve 
start Right Away Cleaning and Restoration in Alpena, Michigan. 
They had worked in the industry for many years.
    The business they worked for was purchased by a larger 
company out of the area and within 12 months abruptly closed. 
They suddenly found themselves without jobs. They knew they 
could create a business that was successful if given the 
opportunity but were challenged with credit issues and personal 
finances due to the loss of the jobs.
    We partnered with a local bank and another nonprofit and 
together we came up, we used a $30,000 microloan and together 
we put a financing package together of $100,000. We helped them 
get QuickBooks training. We understand that it is critical for 
these small businesses to understand their financial reporting, 
how to read their financials, how to manage that.
    So that is a big piece of the technical assistance that we 
like to supply. We also help create Web sites, and we teach our 
clients how to use e-commerce practices to overcome the 
distance to market.
    We are in rural America, the seasonality and the isolation 
associated with doing business in rural America. We support the 
microloan program changes in the Women's Small Business Owner 
Act. I also want to voice strong support for Senator Levin's 
SBA Intermediary Lending Program Act and ILP provisions 
included in Senator Cantwell's bill.
    This is such an important financing tool to enable small 
businesses. It really is a great natural stepping stone to the 
SBA microloan program. We have been able to take microloan 
clients and put them in this product as they are growing.
    Our tagline is prosperity. That is our business. As we 
think about the state of women-owned businesses in our service 
area, these programs and tools are important to building a new 
generation of entrepreneurs. These tools will continue to 
positively impact women in search of opportunity and 
prosperity.
    Every day I am amazed by the passion of my small business 
clients. Every day I am humbled by the work that they do to 
make their businesses succeed.
    Thank you very much for allowing me to share my 
perspective.
    [The prepared statement of Ms. Meeder follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin [presiding]. Ms. Meeder, thank you very much 
for your testimony.
    Mr. Davis.

  STATEMENT OF VERONICA O. DAVIS, P.E., PARTNER AND PRINCIPAL 
       PLANNING MANAGER, NSPIREGREEN, LLC, WASHINGTON, DC

    Ms. Davis. Good afternoon, Chair Cantwell, Ranking Member 
Risch, and Members of the Committee. My name is Veronica O. 
Davis. I am the co-owner of Nspiregreen, LLC, a small 
environmental engineering and urban planning consulting firm 
located in the District of Columbia. We are a 100 percent 
women-owned, minority-owned small business.
    Nspiregreen was an idea formed over twelve years ago, 
created out of the collision of the minds of two young, 
idealistic graduate students. Fast forward to 2009.
    Despite the fact that we had great paying, stable jobs in a 
challenged economy, my business partner, Chancee Lundy, and I 
decided it was the time to jump out the window and start a 
business.
    We stepped out on faith to devote ourselves full-time to 
bringing our vision of ``facilitating the empowerment and 
transformation of every community on the planet'' to fruition.
    As we approach our five-year anniversary, the lights are 
still on, and we employ three people: two engineers and one 
urban planner, all women.
    I am here today to share that the road was not easy. 
Despite having great credit and personal savings, we were 
denied credit. In fact, Nspiregreen was one of 8,000 small 
businesses whose loan applications are denied every day in the 
United States.
    To put it simply, the banks did not see our vision nor did 
we have the collateral that they required. Not letting that 
stop us, we financed our business through personal savings, 
credit cards, liquidating retirement accounts, and some 
assistance from family and friends.
    However, after two years, the money was running dry. We 
were struggling to pay bills, dodging calls from creditors, and 
eating rice and butter for dinner, literally.
    During this time, we met the wonderful people at the 
Washington Area Community Investment Fund, WACIF, located here 
in the District of Columbia, which is a member of the 
Association for Enterprise Opportunity.
    Despite our challenged financial position, they saw our 
vision was clear and our faith was unshakable. They gave us a 
$25,000 microloan and a line of credit. It was the boost we 
needed to keep going.
    When it was time to expand our staff, they were there to 
increase our line of credit, even if it meant working over the 
Christmas holiday to process paper work.
    Our business has grown such that we were able to pay back 
our microloan a year early.
    As my story illustrates, the loan we received from WACIF 
was exactly what we needed at a critical moment for our 
business and our dream. Unfortunately, many women-owned 
businesses do not get that boost and are forced to turn off the 
lights.
    When it comes to women accessing capital, the available 
data paint a stark reality for women-owned businesses and women 
entrepreneurs seeking their first loan. For example, according 
to a November 2013 report by Congressional Research Service, 
women account for just 16 percent of the total number of 
conventional small business loans, accounting for just 4.4 
percent of the total value.
    Another statistic comes from the Kauffman Foundation, which 
found that women seeking first-year financing to get their 
companies off the ground receive about 80 percent less capital 
than their male counterparts.
    In my view, the microloan program is the most important 
government-supported capital access program for women-owned 
businesses. It certainly was for Nspiregreen.
    Since its creation, the microloan program has been a 
lifeline to women, low income, veteran, and minority 
entrepreneurs seeking to obtain small dollar amount loans for 
their businesses.
    According to that same CRS report, women-owned firms 
receive more than half the microloans issued in Fiscal Year 
2013. For minority-owned firms that number is 43 percent. And 
it does this efficiently, effectively, and at a low cost to the 
taxpayer.
    With that in mind, I would like to suggest a few changes 
that the Association for Enterprise Opportunity believes should 
be made to enhance the program. One, make technical assistance 
grants more flexible to allow lenders to access the proper use 
of that grant funding.
    Restricting lenders to a rigid formula is both inefficient 
and forces lenders to adhere to arbitrary guidelines instead of 
focusing on the needs of the borrower.
    Two, program components should be modernized to boost 
lending and efficiency. The program's interest rate caps and 
fee structure should be updated and lending requirements 
streamlined. These would reduce administrative burdens and 
eliminates unnecessary costs, allowing lenders to increase in 
efficiency and productivity.
    Thank you for inviting me to testify today and share my 
story to discuss how important the microloan program was for me 
and the vital role it plays for women entrepreneurs all across 
the country.
    I understand that the Committee under Chairman Cantwell's 
leadership has been hard at work on these recommendations and 
are working to include them in legislation. I would be happy to 
answer any questions the Committee may have at this time. Thank 
you.
    [The prepared statement of Ms. Davis follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Ms. Davis, thank you for your testimony.
    It is my understanding that Ms. Corcoran needs to leave 
shortly. So, we are going to ask you one or two questions and 
then you will be excused and then we will come back to the 
other two panelists.
    I have one question and that is. On Shark Tank, you do not 
have to go through the type of screening and vetting and all 
the security that someone who needs a loan needs to go through. 
You make your gut decisions based upon whether you think this 
is a worthwhile investment or not.
    You indicated that you had successes and you had failures. 
I think it was like a two to one ratio. I did it quickly. And 
then you said that the winners very much offset the losses. Did 
you mean literally that the profits there overcome the losses, 
or did you mean it from the point of view of feeling good and 
emotion?
    Ms. Corcoran. Well, feeling good worked for the first two 
years.
    [Laughter.]
    Only in the last season which was our Fifth Season that we 
have completed, that we are in our Sixth Season now. Yes, they 
did exceed my losses; and if you had asked me two years ago if 
that would have ever happened, I would tell you you are smoking 
dope. No way. Okay.
    But, yes, they did. And more important than that, more 
importantly than that, or whatever the right English is on 
that, the jobs that were created on the view that succeeded, 
the roughly one-third--you are correct on that--have been in 
excess of 150 jobs. I did not see that one coming either.
    But, if I could just add, listening so carefully to what 
the other women here are saying, I have to say that of my 
winners most of them went out for funding from a local bank for 
another food truck if they are in the food truck business or to 
move offices and get computer equipment, not one was granted a 
loan no matter where they went.
    And the reason for that is they did not have the credit. 
Just as I did not have the credit when I got my first $1,000. 
That is a real issue with these small businesses.
    Senator Cardin. Thank you.
    Senator Shaheen.
    Senator Shaheen. Well, thank you all very much for being 
here. Ms. Corcoran, since you have to leave, let me start with 
you.
    Ms. Corcoran. I understand now that in Washington if you 
keep saying you have to leave you get really important, right?
    [Laughter.]
    Senator Shaheen. Well, you get to go first any way.
    Ms. Corcoran. Actually the plane is not important, but I 
get a ferry that only runs through a certain hour. Forgive me 
for that.
    Senator Shaheen. Certainly. I know that on Shark Tank not 
only do you provide money but you provide assistance to the 
contestants. Obviously that capital piece is very important. 
But how important is that technical assistance to people as 
well?
    Ms. Corcoran. It is interesting. I thought the assistance 
was more important than the capital, but it is an interesting 
study in entrepreneurship.
    I find my real winners ask my advice. I give my best 
advice, and then they do exactly as they please. I found that 
my people that were not so good in the end always asked my 
advice, wanted to take careful notes on every piece of it, 
execute it beautifully and failed.
    Not a good report card on me, but I think it just speaks to 
the spirit of the entrepreneur. They are pretty pigheaded. They 
always think they are right, and they barrel ahead no matter 
what you are going to tell them to slow up.
    So, I like to think my advice is important. I work every 
day of the week giving my best advice and putting myself behind 
them, but I am not sure it is so important anymore.
    Senator Shaheen. That is very interesting.
    Senator Cardin. I am going to turn it back to our Chair. 
You are certainly excused to leave. You also get the privilege 
of being called out and saying that you can leave before the 
panel is over.
    Ms. Corcoran. But here is my question. Can I take this home 
with me?
    Senator Cardin. We have very tight budgets here. You might 
not have heard.
    [Laughter.]
    Ms. Corcoran. It is wet. May I take that?
    Chairwoman Cantwell [presiding]. Can I just ask?
    Ms. Corcoran. Of course.
    Chairwoman Cantwell. Did someone follow-up on this issue 
that you so eloquently pointed out that the men do not relate 
to products that women pitch? Did someone follow-up on that?
    Senator Cardin. No.
    Chairwoman Cantwell. If I could just get your--what do you 
think needs to happen on that? Is it get women in front of 
women who understand those products, is that the solution?
    Ms. Corcoran. Well, obviously if a woman is pitching a 
product that women buy and understand, not a golf club 
necessarily but a baby carriage or a household product, a 
cleaning product, whatever it is, if you have women judging it, 
you are going to get more enthusiasm just in the same way that 
Lori Greiner and I on Shark Tank wholeheartedly get what women 
are talking about.
    So that is an asset. But the reality is is that in the 
angel investment world and the venture capital world it is 92 
percent male. And so, how are you going to change that 
overnight?
    There are entirely female angel groups out there that only 
fund and listen to female-owned businesses. That is a start. 
But I think it is a long road and women do need that advantage 
somehow in there, you know.
    Chairwoman Cantwell. Great. Thank you so much.
    Ms. Corcoran. A pleasure and I appreciate it.
    Chairwoman Cantwell. Thank you so much. Okay. We will 
follow up with questions for Lori and Veronica.
    Do you want to start, Senator?
    Senator Cardin. Thank you. Let me thank both of you again. 
I want to go into a little bit of the microloan and the 
intermediate loans and how valuable you thought that was.
    How many did you take? Did you take more than one of those?
    [Laughter.]
    Just checking. They check these numbers every night when we 
leave here.
    [Laughter.]
    I know that you have to go through what banks go through, 
what lenders go through in order to make sure that person is 
creditworthy.
    The numbers are pretty encouraging from the number of 
women-owned businesses that qualify for microloans, those 
numbers look pretty encouraging. Is there a reason for that or 
what do we need to do so that we can get more businesses 
qualified for these small loans?
    We have heard how critical that is to getting started. What 
can we do to make it easier, recognizing there has to be a 
business plan, there has to be discipline, but what can we do 
to make this easier for someone to get a loan?
    Ms. Meeder. I think really it is critical to get the 
communication out there. In the case of where we are at in 
northern Michigan, educating the bankers about the programs is 
huge because that is where these people go first.
    And so to make sure that they understand what we can do. 
The way we look at it, you know, banks are looking at kind of 
the five Cs of credit, and everything has to be perfect. That 
is not the case with us.
    If they have got an issue with credit or maybe they do just 
lack experience, we are working with partners all the time to 
help them build that business plan, build that business model, 
do the market research, does this make sense?
    You know, it is one thing to underwrite a credit, and it is 
another thing to look at it and say, okay, is it is viable 
because the last thing that any of us want to do is, you know, 
put money out there that maybe is not a viable business model.
    So, really it is just bringing all the partners together to 
make sure that we are communicating to our communities, our 
bankers, our CPAs, our attorneys what we have to offer.
    Senator Cardin. Thank you.
    Mr. Davis, let me just quickly. First of all, you started a 
business in 2009. So, the year you started was not exactly the 
best economic time to start.
    So, you not only had to overcome the obstacles of starting 
a business but you picked the year that was very challenging. 
So, congratulations. You must have a very successful operation. 
But you mentioned technical assistance. What can we do to make 
technical assistance more available? I think you are absolutely 
right. That is a critical ingredient to getting started.
    Ms. Davis. I think that, you know, community-based 
organizations like the Washington Area Community Investment 
Fund are great for being able to provide that technical 
assistance for mainly because, one, they work with smaller 
businesses, they are based in the community, and many of the 
employees live in the community.
    They understand the business environment that many of us 
are operating in. I think that technical assistance is key. We 
meet with them at least quarterly just to go through our 
financials making sure that we have everything set up 
correctly, making sure that we are growing our business.
    I think it is absolutely critical to have that technical 
assistance.
    Senator Cardin. That is a good point.
    Ms. Davis. At the end of the day I am an engineer. I am not 
an accountant.
    Senator Cardin. And you cannot put someone on staff to deal 
with these issues.
    Ms. Davis. Exactly.
    Senator Cardin. You want to do the business not with the 
bureaucratic issues that we require. Thank you.
    Chairwoman Cantwell. Senator Shaheen.
    Senator Shaheen. Thank you. I would like to follow up a 
little bit on that question, Ms. Meeder, but sort of look at it 
from the other side of, and that is, how do we get banks to 
provide more support for women-owned businesses?
    I appreciate that many of these challenges are about more 
than just the numbers on the piece of paper, that they are also 
cultural. And so, are there things that we can do to encourage 
the traditional banking sector to look more favorably on women-
owned businesses in terms of access to credit?
    Ms. Meeder. Yeah. I am not in commercial banking anymore 
but working with them there are pockets of bankers that are 
doing very good things, that are being very good and community 
banks that are, you know, kind of centered in their community, 
I think they are doing that.
    I think the SBA Director said it best in that the challenge 
they have is they have a $15 million bogey to hit every year, 
and you cannot do that with $50,000 microloans. It is just 
difficult.
    I do not know the answer to that. But I think again there 
are pockets. I am not sure how we could, you know, other than 
us partnering with them to build a business from start to get 
them a track record so they can go back to their bank. And we 
have done that many times where we help them start. We help 
them grow. The bank takes out, and again that is kind of a win 
for us.
    Senator Shaheen. You know, in northern New Hampshire we 
have a Women's Rural Entrepreneurial Network, a program that 
does microlending. It sounds very similar to what you have in 
northern Michigan.
    As we think about the role that the Small Business 
Administration could fill in terms of looking at microlending, 
is there more that you think SBA should be doing around 
microloans.
    Ms. Meeder. I love the microloan program. Love it. I think 
some of the things that they are going to tweak this time 
around are huge. The technical assistance piece, when somebody 
comes to us, we need to service our business community whether 
they end up being a loan client or not that is hard to say but 
there are a lot of people who need technical assistance right 
up front and we are there to coach them through the process, 
have you thought about this, are you ready for this. These are 
things you have to think about.
    And so, allowing of that pre and post technical assistance 
limit I think will make a big difference. I think the technical 
assistance in such a critical piece. We have now started kind 
of, we are doing business assessments up front now.
    How ready are you for this and this and this? If you are an 
existing business are you thinking about this, this, and this. 
So that we and they can kind of developed that, yeah, I have 
not thought about putting that kind of system into place. But 
it is very labor-intensive. As you know, technical assistance 
and nurturing these people and growing these businesses, it is 
a lot of really good time and time well spent.
    Senator Shaheen. Mr. Davis, can you talk a little bit about 
your experience in trying to obtain financing before you found 
the microloans program?
    Ms. Davis. Yes. When we started the business, we absolutely 
looked great on paper financially. We had a significant amount 
of personal savings. We had great retirement. We had great 
credit scores. We both owned homes. You know, we looked great 
on paper.
    And, you know, you would go to the bank and we said, okay, 
we need a loan for $50,000. And then they will say, okay, well, 
you need $50,000 in collateral, and it has to be liquid 
collateral. Well, we do not quite have liquid collateral.
    So then they say, well, let us give you this loan 
paperwork, and you can fill out the paperwork. You get mired in 
death by paperwork, and you never quite get there, and then you 
get denied.
    For us, this was something that was important to us, and we 
just kept going, and we gave it every ounce that we had, and we 
are here today. I think it is very important to have more 
microloans programs, and even with the microloans program it is 
a much more streamlined process.
    It is a lot easier on the paperwork than a conventional 
loan. For a conventional loan, you have to give everything 
including your DNA just to get some money.
    But I think for the microloans program, it is much more 
user-friendly, and as someone mentioned earlier business owners 
do not really have a lot of attention span. We are constantly 
pulled in different directions, and we really want to be about 
the business and providing service to our clients, not being 
mired in paperwork.
    Chairwoman Cantwell. Thank you. We are going to go to the 
second panel but I wanted to ask about crowdsourcing. I do not 
know if either of you addressed it in your testimony.
    But we had a hearing, a field hearing out in our State, and 
we saw women entrepreneurs who--the microloans issue, we want 
to further promote and obviously the internet is a way in which 
we can further educate people on those opportunities.
    But I have seen women who are jumping right into small 
business. One woman said we are going to create an organic 
cranberry business because we grow cranberries. Nobody had an 
organic cranberry juice product in the market, and so she just 
went online and crowdsourced for the crusher, the presser that 
was going to make the juice.
    So what role do you think that plays in, you know, the 
internet communicating and crowdsourcing in general.
    Ms. Davis. I think for women who have product-based 
companies it is a great way to get started, get the product out 
there. However, we have to remember there are many of us who 
are on the professional services side, and it is not quite easy 
for us to get that level of funding that way.
    I think that particularly in this STEM field what we are 
seeing is that a lot of women engineers are leaving the large 
engineering companies and starting their own business and 
mainly because particularly with the engineering field, you 
have got to climb the corporate ladder and still get to the 
glass ceiling.
    Women are saying you know what, I will just build my own 
building, and I think that we are seeing that more and more. I 
do not know that crowdsourcing would work in that type of an 
industry.
    Chairwoman Cantwell. Thank you.
    Lori.
    Ms. Meeder. We have actually kind of partnered on a couple 
different projects with crowdsourcing, and one of the things it 
does especially if it is a consumer-based product, it is a 
great test market. Right?
    I mean really they are going to find out quickly if there 
is no real interest. So, an example, we helped a new business 
financing tooling to get their product prototyped.
    Then they went to the crowdsourcing and were able to then 
kind of take it to the next level to then begin, you know, more 
mass production of it would be an example.
    I have got another one now that is a 100-plus year old 
theater in a little town in northern Michigan that really needs 
that theater, been in the same family forever, nephew, great 
grandson of the original owner crowdsourced $100,000 to fix 
some of the building.
    We are going to come in and help him with reroofing and 
seeding it. He needed that digitization. So, I think there are 
ways we can, you know, kind of work together on that. I think 
it is a really cool thing.
    Chairwoman Cantwell. Great. Great.
    Well, thank you both very much for your testimony today. We 
leave the record open so that the members who were not here can 
ask questions, and hopefully you can get us answers. Thank you 
so much for your testimony.
    We are now going to go to our next panel which is going to 
be led by Nely Galaan, who is the first Latino president of a 
television network who built her own media production company. 
She now invests in the success of young Latinas.
    She will be joined by Victoria Wortberg of the Washington 
Center for Women in Business from Lacey, Washington. We thank 
her for being here. She is going to talk about the importance 
to targeted business development services for women to address 
the unique challenges women face in starting businesses.
    And we welcome Susan Sylvester of Absolute Resource 
Associates in Portsmouth, New Hampshire.
    And Lynn Sutton, who is with Advantage Building Contractors 
from Atlanta, Georgia, who will testify on women small 
businesses and the challenges they face when competing for 
federal contracts.
    So, welcome all of you. We are so appreciative that you are 
here.
    Ms. Galaan. You said it correctly.
    Chairwoman Cantwell. All right. Great. Nely, you are on 
first. Thank you.

  STATEMENT OF NELY GALAAN, FOUNDER, GALAAN ENTERTAINMENT AND 
             ADELANTE MOVEMENT, MARINA DEL REY, CA

    Ms. Galaan. Thank you, Chairwoman Cantwell, Ranking Member 
Risch, and Senator Shaheen. Thank you so much for having me 
here. I am honored to testify on behalf of Latinas and on 
behalf of women of color around entrepreneurship.
    As an entrepreneur myself. I am an immigrant from Cuba. I 
came here when I was five years old, and I have started a 
business in media, which is 20 years old, and I am the first 
Latina to be president of a network.
    My entrepreneurship gene began like many immigrants as a 
girl in junior high who started to sell Avon in school to help 
my parents pay for school. Later on when I got into television, 
I was a station manager, which is a very down business, and I 
work for a gentleman that owned the station, and I built it up 
from five employees to two 200 employees for three years.
    And one day when I walked into work, my boss said to me, 
oh, we sold the company, we sold the station and I was so angry 
at him and I questioned him and I said how could you do this, 
why did you not tell me it was up for sale? I felt that it was 
my baby.
    And he said these words to me that changed my life. He 
said, ``Young lady, those are my chips; go get your own 
chips.'' And I was very upset, but he sparked in me something 
that maybe my family as immigrants could not do at the time, 
and I decided to start a business.
    Really there was nothing out there for me that told me how 
to do that, how to go about it. For the first four years of my 
business, I did not make one penny. You can imagine what that 
is like for immigrant parents that want you to get married and 
move on and they are telling you stop this entrepreneurship 
thing, and I really had a hard time.
    But my boss had said to me once in one of our meetings, 
when I was your age, I started a business and for 10 years I 
did not make money.
    So, thank God I did not give up, and I hung in there. Then 
in the fourth year I started making some money, and after that 
I went through the roller coaster ride of entrepreneurship with 
very little help.
    A couple of years ago I go on Celebrity Apprentice with 
Donald Trump. They asked me. You know, I had been in television 
for many years, and they said we need a Latina in there.
    When I went on as someone who has been behind the scenes 
building a business for so many years, I did not realize so 
many Latinas, so many women of color would call me and say how 
do we do it, how did you do it, we do not know where to get the 
information still. And even though there are so many 
organizations out there we still need more information.
    So, I decided to do something about it myself. Now that I 
am in a very different place financially, I thought this is 
something I should take on. I have always thought the private 
sector should also help our communities and deal with 
entrepreneurship.
    So, I founded something called the Adelante Movement. 
Adelante in Spanish means adelante, move forward. I like to say 
it is adelante, let us get going.
    Really the Adelante Movement is a grassroots movement that 
unites, educates, and supports Latinas in their journey of 
economic empowerment through digital content, community 
workshops, events, and meeting other Latinas that have already 
done it so they learn how to go get their own chips.
    Again as someone in the private sector, I am lucky because 
I was able to fund a lot of this myself, and I was blessed to 
come across Coca-Cola, who helped me seed this through their 5 
by 20 Global Initiative to enable the economic empowerment of 
five million women by the year 2020.
    I just want you to know a little bit about our Latinas. 
They are the fastest-growing entrepreneurs in America. They 
control most of their households' budgets, and they are the key 
decision-makers with regard to their children's education. They 
are the pillars of our community and will only grow in 
influence as more and more come of age in each year.
    Latina women are expected to become 30 percent of the total 
female population in this country by 2060. I have been on the 
road meeting all my Latinas, and I can tell you they are all 
engaged completely in entrepreneurship and really are looking 
for more help.
    The Adelante Movement is the beginning of that, and again, 
I believe in a private sector approach and I am willing to put 
up my own money and go find money from the private sector.
    However, I believe the Federal Government must also invest 
in Latinas' success by crafting policies that support and help 
to grow women-owned businesses.
    As such, it should reauthorize the Women's Business Center 
Program and authorize sole-source awards to women-owned small 
businesses to increase the number of women as federal 
contractors.
    These actions would bolster our economy and provide 
increased opportunities and access for women in general and 
Latinas in particular. Reauthorizing the Women's Business 
Center Program, which provides counseling and training services 
to women business owners, is crucial to our Nation's equitable 
success.
    The WBC Program is the only entrepreneurial education 
program with specific responsibility to reach out to low income 
and socially disadvantaged women.
    My Latinas need this information. Counseling and training 
is crucial, and I have seen firsthand what it can do. At 
Adelante training and workshops, women learn how owning their 
own businesses can improve not only their life but enrich their 
community and the lives of their children as well.
    Women leave energized, informed, and with the skills and 
tools necessary to make their dreams a reality. However, as I 
just said, we can only do so much through Adelante. It takes a 
government that is committed to the future economic success of 
its citizens to invest on a larger scale in programs that will 
incur a positive return on investment.
    Increasing the level of investment in the WBC program will 
ensure that all women regardless of social status or income 
level have access to the training, mentorship, and capital 
required to become job creators and influential community 
members.
    If women in general, and Latinas in particular, are given 
the tools to build their own path, America's best days truly 
lie ahead, and I say adelante.
    [The prepared statement of Ms. Galaan follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairwoman Cantwell. Thank you very much for that testimony 
and we will wait until all the witnesses have given testimony 
and then we will ask questions.
    Ms. Wortberg, thank you very much for being here.

  STATEMENT OF VICTORIA WORTBERG, PROGRAM MANAGER, WASHINGTON 
            CENTER FOR WOMEN IN BUSINESS, LACEY, WA

    Ms. Wortberg. Thank you for inviting me.
    Good afternoon, Chair Cantwell and Members of the 
Committee. My name is Victoria Wortberg. I am the Program 
Manager of the Washington Center for Women in Business in 
Lacey, Washington.
    I am testifying today on behalf of the Association of 
Women's Business Centers. Over my career, I have had a chance 
to serve in a number of leadership and management positions 
including a multimillion dollar ad agency.
    But before I did all of that, I started by purchasing a 
small graphic design firm for $40,000 with an SBA loan. I was 
able to diversify and grow my firm to national prominence with 
sales of $13 million.
    However, as my firm grew, I struggled with making the move 
from being a start-up to being a scale up and a growth company. 
I learned quickly that I needed stronger management skills and 
financial skills, and this is at a time when I really needed to 
be positioning my business to move from stage I to stage II. 
Those skills were essential to me.
    In short, I could really have used a women's business 
program, but none existed at the time. It was this experience, 
the struggles, the excitement of owning and managing my own 
business that encouraged me to apply and become the Program 
Director at the Washington Center for Women in Business. It is 
an honor to be a part of that program.
    Our Women's Business Center was established in Fall 2013. 
We provide services to 34 of the 39 counties in the State of 
Washington. And since we opened our doors about six months ago, 
we have provided over 100 different webinars, workshops, and 
training events to over 200 clients and provided business 
coaching to over 150. Seventy-five percent of our clients are 
women. Their ages vary greatly from 20 somethings to 70 
something, and approximately 25 percent are ethnically diverse.
    In our community, the WBC, the Small Business Development 
Center, and SCORE all work cooperatively. We strengthen our 
economy one business at a time by working together. Our 
collaboration avoids duplication of services. It also lets our 
clients enjoy the strong skills that we all bring to the table.
    There is a whole network of 106 different Women's Business 
Centers just like ours that come to work every day to meet the 
needs of women entrepreneurs in every state across this 
country. I am very pleased to share some wonderful statistics 
about the success of the WBC program based on information from 
the SBA.
    In Fiscal Year 2013, WBCs counseled and trained nearly 
134,000 entrepreneurs creating 640 new businesses. We do this 
at a very low cost. On average, each Women's Business Center 
serves about 1,300 entrepreneurs at a cost of approximately 
$137 per entrepreneur.
    Women's Business Centers also have a history of 
outperforming program goals, and last year the WBC program 
exceeded our performance goal by 34 percent.
    When Congress established the Women's Business Center 
Program in 1988, it did it as a part of landmark legislation, 
H.R. 5050. The Congress felt that women faced discrimination 
and mandated that services provided by the centers include 
socially and economically disadvantaged women. In fact, the WBC 
program is the only SBA resource partner that is actually 
required to serve this population.
    Chair Cantwell, we understand that under your leadership, 
the Committee has been working to reauthorize and update the 
WBC program; and on behalf of all of the women in the room, 
thank you. We are here to show our support.
    We urge you to consider including the following 
recommendations. One, the total amount of the grant available 
to qualified WBCs is now $150,000 a year. Adjusted for 
inflation, according to the Bureau of Labor Statistics, that 
amount in 2014 would now be $301,648. The AWBC believes that a 
reasonable allowable grant level should be $250,000 per center. 
We suggest increasing the program's funding authorization to 
$26.75 million.
    Two, we recommend Congress direct the SBA to promulgate a 
single, comprehensive set of rules that govern the program so 
that it can be administered efficiently and effectively.
    Three, Women's Business Centers must match the federal 
grant with private contributions; and as any nonprofit 
executive will testify, raising money is difficult enough 
during the best of times but in an economic downturn the 
challenges are far greater.
    We recommend the Congress put in place a waiver for those 
lean years but limit it to no more than two consecutive years.
    We also recommend that center directors be given the 
ability to fundraise for the nonfederal match without 
restriction. It is time to modernize the program and think 
bigger. Women deserve better, and the program that serves them 
needs to move from being just big enough to make an impact but 
really too small to reach our potential.
    On behalf of the newly revitalized Association for Women's 
Business Centers and the Association of Women's Business 
Centers we stand ready to work with the Committee to bring the 
program into the 21st century.
    From one business owner to another, I want to thank you 
very, very much. I am happy to answer any questions. Thank you.
    [The prepared statement of Ms. Wortberg follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairwoman Cantwell. Thank you very much for your 
testimony, and we want to ask you about some of the details of 
your specific recommendations but we are going to hear from our 
other witnesses. We want to welcome Susan Sylvester. Thank you 
very much for being here.

  STATEMENT OF SUSAN SYLVESTER, PRESIDENT AND CHIEF FINANCIAL 
     OFFICER, ABSOLUTE RESOURCE ASSOCIATES, PORTSMOUTH, NH

    Ms. Sylvester. Thank you for having me here.
    Chair Cantwell, Senator Shaheen, thank you for the 
opportunity to present testimony in support of the hearing 
today. I am going to tell you a few stories about our company, 
some of our success stories.
    Our company has a long and successful relationship with the 
SBA. It is a relationship that began the day that I bought the 
company back in 2000. After 15 years of working for large 
national firms and witnessing many consolidations, mergers, and 
acquisitions, I decided I would rather rise or fail based upon 
my decisions, not those that were happening in a corporate 
boardroom.
    I had a solid business plan, a strong team to support me, 
and the passion to succeed; but, as with the common thread 
today, what I needed was funding to purchase the business. I 
had no banking relationships and could not find a bank that was 
interested in loaning us money.
    But in 2000, I met with a woman at the Women's Business 
Center in Manchester, New Hampshire, and the business counselor 
there helped tweak the business plan and get a good cash flow 
analysis that was tight, and she actually got me appointments 
with three banks.
    As a result of that support from the WBC, we did find a 
bank to loan the money. We still work with that same banker 
today. The loan was an SBA guaranteed loan.
    In 2000, the company that I purchased was doing half a 
million dollars a year and had seven employees. Today, we have 
tripled in size, doing over two million dollars a year and 
employing 22 hardworking citizens.
    Due to our growth, we needed more space and equipment. So, 
once again, in 2012, the SBA was involved in funding our needs, 
and we now have a 504 loan that helped us not only increase our 
capacity but also allowed us to incorporate some energy savings 
into our operation. Our lighting and ventilation systems have 
both been upgraded, and we are saving 40 percent on energy 
bills in our new space.
    Our industry, like many, has been affected by a tight 
economy. It has been challenging, but we have been able to show 
slow, steady growth. A big part of that growth comes from our 
designation as an 8(a) disadvantaged business and through our 
efforts to increase our work with the Federal Government.
    Through the 8(a) program, we have been awarded several 
small contracts; and once our performance was proven, the 
contracts usually increased in funding and scope. We have also 
been awarded one contract based on our economically 
disadvantaged woman-owned small business status.
    And our big news is just last week, we were awarded a 
woman-owned small business four million dollar IDIQ with the 
Navy at the Portsmouth Naval Shipyard.
    Jackie Johnston, the Acquisition Branch Head and Small 
Business Specialist at PWD Maine, awarded five of these 
contracts to Woman-Owned Small Businesses. And I believe that 
if all contracting officers were like Jackie, I am sure we 
would meet our goals.
    These programs allow our small but very capable company the 
opportunity to show what our capabilities are, despite the fact 
that we do not have the breadth of experience that the large 
federal contractors have.
    Our employees are some of the best in the business, and we 
stand behind our service 100 percent, but without these small 
business programs, we would not have a chance to throw our hat 
in the ring. Through programs like 8(a) and WOSB programs we 
can.
    We have participated in SBA programs for 7(j) training 
programs. We use PTAP services daily, attend matchmaking 
events, in addition to using the SBA resources for capital and 
customers.
    We find these services extremely valuable. Without these 
programs, our company would not have had the ability to do the 
good work we do and create the 15 jobs we have created so far.
    In closing, I just wanted to say that although I am the 
majority owner of our business and happen to be a woman, I 
would not be sitting here today without the tremendous support 
from our fabulous employees and our loyal customers, and so, I 
just wanted to on behalf of all of them thank you for the 
opportunity to tell our story.
    I support the efforts to enhance the woman-owned small 
business program by putting it on par with other contracting 
programs including Senator Shaheen's Women Small Business 
Contracting Parity Act. Providing sole-source authority for the 
woman-owned small business program would put women business 
owners on the same playing field as the other contracting 
programs and help the Federal Government meet its contracting 
goals for woman-owned small businesses for the first time. 
Thank you.
    [The prepared statement of Ms. Sylvester follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairwoman Cantwell. Thank you very much and 
congratulations on your recent success. We will have some 
questions for you.
    Ms. Sylvester. Thank you.
    Chairwoman Cantwell. Last but not least, Ms. Sutton. Thank 
you very much for being here.

 STATEMENT OF LYNN SUTTON, CHIEF EXECUTIVE OFFICER, ADVANTAGE 
               BUILDING CONTRACTORS, ATLANTA, GA

    Ms. Sutton. Thank you.
    Chair Cantwell, Ranking Member Risch, and distinguished 
Members of the Committee, thank you for the opportunity for me 
to testify here this afternoon.
    My name is Lynn Sutton. I am CEO of Advantage Building 
Contractors, based in Atlanta, Georgia. We provide construction 
services to the Federal Government and are a certified EDWOSB, 
an 8(a) program participant, veteran-owned, and in the process 
of getting our HUBZone certification.
    I am representing Women Impacting Public Policy, WIPP, a 
national nonpartisan public policy organization advocating on 
behalf of this coalition of 4.7 million businesswomen including 
79 business organizations.
    My company entered the federal marketplace after working in 
the private sector for seven years. We became certified in 
SBA's 8(a) program, and after three years we have gone from 
knowing practically nothing about doing business with the 
Federal Government to successfully compete on multimillion 
dollar IDIQ contracts which is indefinite delivery indefinite 
quantity contracts.
    Much of that success has been due to our participation in 
the 8(a) program and its ability to sole-source contracts to 
us.
    Speaking before you today on improving contracting 
opportunities for women, it is entirely fitting because in 
2011, my company won the first construction contract that was 
set aside for EDWOSB firms in the WSB Procurement Program.
    As you know, women advocates across the Nation fought for 
more than a decade to implement the WSB program. This delay 
came at a tremendous cost. The lost decade translated into 94 
billion and missed contracting opportunities for WSBs.
    Today less than 1 percent, in fact, only \1/100\ of a 
percent of federal spending has been awarded through this 
program. My firsthand experience in the effectiveness of having 
sole-source authority in the 8(a) program leaves me to call for 
two changes in the WSB procurement program.
    One, provide sole-source authority, and two, expand the 
program to more industries.
    The Women's Small Business Procurement Parity Act, S. 2481, 
introduced by Senator Jean Shaheen and cosponsored by Chair 
Cantwell, Senators Gillibrand, Murray, Cardin, and Markey makes 
these two critical changes.
    Senators, thank you for your work on this front.
    In my role as CEO, I can attest to the value of sole-source 
contracts; $5 million of our revenue is generated through 
contracts with the Federal Government and 60 percent of our 
federal contracts in Fiscal Year 2014 were awarded through 8(a) 
sole-source authority.
    Contracting officers are able to reach out to us and 
negotiate directly to achieve fair and reasonable pricing for 
services as well as being assured we are capable of doing the 
work.
    In turn, these contracts allow my company to expand while 
strengthening our past performance so we are able to 
successfully compete on the open market. Without sole-source 
authority through 8(a), my business would have joined thousands 
of other women-owned businesses that fail each year.
    A simple tenant of fairness would make this tool available 
to all the WSBs who participate in the program. After all, the 
other major small business contracting programs such as 8(a), 
the veteran-owned, and HUBZone have this ability.
    S. 2481 also addresses the second change. Expanding the 
program. This cannot happen unless a new disparity study is 
completed. I know this Committee is also working on legislation 
that would address procurement changes as a part of the larger 
women's businesses ownership bill.
    It is encouraging that women in the Senate are leading this 
charge. For my part, I will continue advocating on this issue 
and bringing my services to the government customers.
    WIPP is actively improving the environment for women in the 
contracting arena as well. Through their ChallengeHER and give 
me five star programming, WIPP educates women across the 
country about the potential opportunities available in the 
federal market.
    Archbishop Desmond Tutu said, if we are going to see real 
development in the world, then our best investment is women. 
Through release of its report and holding this hearing, this 
Committee is investing in women.
    I thank you for that and am happy to answer any questions.
    [The prepared statement of Ms. Sutton follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairwoman Cantwell. Thank you very much for your 
testimony. I am actually going to start with you because one of 
the things I want to drill down on is why the sole-source 
contracting matters so much. You talked about it as it related 
to what I think was the 8(a) program. Is that where you are 
from?
    Ms. Sutton. Yes.
    Chairwoman Cantwell. Could you just unpack this issue a 
little bit? Why does it matter so much? What are the barriers 
that are stopping us?
    Ms. Sutton. Well, I can speak from my own experience to say 
how it made a difference with our company. When we entered into 
the federal arena, we could not get any Federal Government work 
at all.
    Our first Federal Government contract was a project that 
was sole-sourced to us. It happened to be a $1.5 million 
project with the CDC to replace their roof.
    At that time, all we did was roofing. We did such a great 
job they said can you do this, can you do that. So, it gave us 
the opportunity to get more jobs.
    Before we completed our first job, they had already 
assigned other jobs to us. We were able to negotiate a loading 
dock. It was our first time taking on that type of job. We did 
an interior build out. We did another roof. They were happy 
with the performance, needed some other work and they gave us a 
chance.
    We would not have had, you have to have past performance or 
you are not going to get the work. Everyone wants to do 
business with someone that they know. You have to have the past 
performance as well to be able to show them that the government 
is spending their money where they need to spend it.
    So, we were given that opportunity the first time around.
    Chairwoman Cantwell. So, basically you are looking at the 
Federal Government who is doing sole-source contract work and 
obviously that is an incentive for someone. Is that what you 
are saying? I mean, you were competing in other areas where 
there were not sole-source contracts?
    Ms. Sutton. Yes. We are always competing even today. We 
spend about 120 hours a week just with putting, you know, bids 
together for what we are doing on the competitive side.
    But when it comes to the sole-source work, we were given 
that opportunity. If we were not given that opportunity as 
sole-source, we would not have gotten the job to get started.
    It is just about getting the first step. Once you are able 
to show that you can perform, then the other agencies will have 
faith that you can do the job. You bid on the work. You do good 
work, you will get more work but you have to get it. Sole-
source authority gives us the opportunity to do that.
    Chairwoman Cantwell. Does anybody else want to comment on 
that?
    Ms. Sylvester. In my experience, the sole-source work is, 
it is very difficult to get. You have to find that opportunity 
before it gets out to the federal biz ops and general public.
    So, you have got to be almost two years before they want to 
spend that money. You have got to be developing a relationship 
with that office. You have got to be contacting them sometimes 
once a week just to stay in touch trying to get those visits 
with them so you can demonstrate your capabilities and what 
your performance is and then they will keep you in mind when an 
opportunity comes along that they feel is a good fit for what 
you have demonstrated your capabilities are.
    Just as Lynn said, you need experience, you know, for 
federal work. Everybody wants to have some experience. So, to 
think that we are just sitting there waiting for a sole-source 
to come our way, that is not in the way that it works. It is a 
lot of effort.
    It is almost easier to bid on competitive work because you 
just wait for the solicitation to come out and you bid on it. 
In this work, we are doing groundwork two years sometimes ahead 
of time before that sole-source and talking to that contracting 
officer and convincing them that we are the best value for that 
project is my experience.
    Chairwoman Cantwell. Okay. Anybody else want to answer on 
that? Did you have something else, Lynn, you wanted to add?
    Ms. Sutton. I would like to add to that. One important 
factor is that to begin with what people are comfortable with, 
people want to do business with people that they know and that 
they know can do a good job.
    When Susan was talking about the work that goes into it, 
for us it starts with investigating on FPDS, finding out what 
agencies, a lot of work goes into knowing what agencies are 
sole-sourcing work, who is friendly to 8(a) so we can get it, 
who are the decision-makers, establishing a relationship, doing 
the capabilities briefings.
    It takes at least 18 months before you really get your foot 
in the door. So, the sole-source relationships that I have now 
started in 2010. When they have a particular situation because 
of time constraints or mission critical situations, they reach 
out to us directly and they say here is a statement of work. We 
have to negotiate that statement of work with them that can 
also take two months just in negotiating the work.
    The government saves money because they are not putting the 
RFP out and going through that process. They are getting fair 
and reasonable pricing from us because we have negotiated it, 
and we are also able through that negotiation to give them 
options that actually save them money that might deviate from 
their statement of work that comes out to solving their 
problem, and we just have a different way and a more cost-
effective way of doing it.
    So, they benefit in many ways by sole-sourcing this to us 
as well.
    Chairwoman Cantwell. Thank you for that qualification.
    Senator Shaheen.
    Senator Shaheen. Thank you all very much for being here and 
special thanks to Sue Sylvester, who is from Absolute Resource 
Associates. I have had the opportunity to visit there and to 
see and hear your success story.
    I want to explore a little bit more the line of questioning 
that Senator Cantwell had about the sole-source business 
because, Lynn, thank you for your comments as well on that.
    But one of the things that I think may not be clear to 
people listening is why being able to benefit from sole-source 
contracting is so important to your business. What percentage 
is it of what you look at as you are thinking about doing work, 
trying to do work for the Federal Government and why is this, 
Sue, you mentioned that sometimes it is easier actually to bid 
on a competitive bid than a sole-source contract.
    So, talk about why this is important for you as a woman-
owned business.
    Ms. Sylvester. Our business is probably, up until this 
year, was probably 80 percent commercial work, you know, 20 
percent was federal, and really the only opportunities, the 
initial opportunities we got for work were through the 8(a) 
program. That was the way we were able to get our foot in the 
door and show our performance.
    Most of the other awards are small business awards. I mean, 
it is part of the 8(a) program. They want to get you the 
experience, help you along the way, but they expect you to 
graduate and move on.
    I think the same thing would happen with women-owned small 
business programs that that same process would happen. You 
know, that is what we expect to happen. We do not expect things 
to be handed over to us. They never have been. But getting your 
foot in the door and being able to show your performance is 
huge and that is what the program really does for you, the 
sole-source program.
    Senator Shaheen. Great. Let me also ask you. You commented 
on the contract you recently got from the Portsmouth Naval 
Shipyard, and congratulations on that. That is terrific.
    Ms. Sylvester. Thank you.
    Senator Shaheen. But you also talked about your contracting 
officer there and the fact that she was so good. Can you talk a 
little bit about what made that experience maybe better than 
some of the others you have been through? Do you see her 
support for awarding contracts to women-owned small businesses 
coming from a directive at the top saying, I am thinking about, 
how do we change the culture for contracting officers through 
DOD and other federal agencies so that they have that uppermost 
in their mind?
    Is that something we can mandate or does it come through 
training? Was there anything there that you saw that made that 
a better experience?
    Ms. Sylvester. Jackie is unique. Pretty much all of the 
contracting officers that we deal with, she is always trying to 
think of new ways to bring in new contractors to the shipyard.
    There is plenty of work at the shipyard. There are a lot of 
people who are there that have just been there for 10 or 15 
years. She feels very strongly that there is plenty of work to 
go around and how can she bring some new vendors into this 
organization, you know, out to the shipyard and do good work.
    And through us, she expects us to bring in new 
subcontractors to get some new faces out there. So, she is 
constantly thinking about what is in the best interest of the 
shipyard and making sure that businesses that are able to do 
the work there and offer good value get the opportunity and 
they are not locked out.
    Senator Shaheen. And again how do you think we can get 
other contracting officers to have that approach? Do you have 
any thoughts? Do any of you have any thoughts about that? 
Victoria.
    Ms. Sylvester. I do not. It is the million-dollar question.
    Ms. Wortberg. As part of our program, we are housed with 
PTAC and SCORE and SBDC; and the advantage of that is that our 
PTAC officers work day in and day out with our WBC clients as 
well.
    So, they are going out to the people who are buying these 
services and actively marketing on behalf of our clients. So by 
getting organizations to work closely together, we get our PTAC 
program to understand the special needs of our were women 
business owners and then they are able to go out and help the 
contracting officers understand the issues as well.
    So, I think through the coordination that the SBA has been 
talking about, it is a very effective way of changing attitudes 
and educating and creating relationships.
    Senator Shaheen. And we certainly expect Administrator 
Sweet to push on that in her new role.
    Let me ask you, Ms. Galaan. You talked about the role of 
the Federal Government in setting policy that can help Latina 
women-owned businesses.
    One of the challenges I think we have as Senators is most 
of us on this Committee have a good idea of what we would like 
to see that could encourage some of those policies. I think one 
of our challenges is building support for that in the rest of 
Congress.
    So, I know that WIPP is interested in this issue. How do we 
get women to advocate with the Congress in support of these 
policies that we know are important as we are trying to 
encourage women-owned businesses?
    Ms. Galaan. Well, I think what I am trying to do with 
Adelante is to partner with organizations like WIPP, like Count 
Me In, that are already there, that are already established and 
trying to join forces and bring the Latinas to the table to 
advocate for some of these things because I think we do not 
realize that, you know, ever since the bad economy Latinas were 
already entrepreneurs.
    As I said, we were kind of natural entrepreneurs. But with 
the bad economy, a lot of our husbands have lost their jobs and 
the role of the breadwinner in the family has now gone to the 
Latina head of household.
    So, these women are ready to go but they are not really 
integrated in the United States system of how going and raising 
money through the government works at all.
    So, I am lucky to have found organizations like WIPP and 
others that have helped me also, you know, learn the system and 
the processes, and I am hoping to bring these women to the 
table.
    I agree with you that we need to be part of the table. We 
need to be at the table and we need to fight to be part of the 
system. It is very important.
    Senator Shaheen. Thank you.
    Thank you, Chair Cantwell.
    Chairwoman Cantwell. I wanted to follow up on the 
difference. You know, one of the changes that we are talking 
about from the report is just making sure we really focus on 
the adequate particular training to women.
    Obviously, Victoria, you are here representing the Women's 
Business Centers but I want to talk about what are the 
differences because I can already hear some of the debate that 
we are going to have about, well, why cannot SCORE just do this 
and why cannot, you know, some of the small business centers 
just do this.
    So, can somebody talk about the differences between these 
services or what do you think are the critical relevant 
services that women businesses need?
    Ms. Galaan. Well, I think for starters, I will speak for 
Latinas. I think we take for granted that Latinas really do not 
know yet the system, do not even know how to find out what is 
offered.
    It is very complicated. If you go on the Web sites to even 
go there and start from scratch, it is very difficult. And so 
from my point of view, I feel like one of the things I hear 
them say is, we also need to figure how to learn to partner 
with other women.
    We need to build bridges between women that are already 
further along and create mentorship programs to bring these 
women through the system and through what is offered because it 
is very complicated.
    Chairwoman Cantwell. Anybody else want to talk about that 
particularly about SCORE or the Small Business Development 
Centers and the difference between what the women's centers are 
doing?
    Ms. Wortberg. I would love to. You know, when you start a 
business what you are trying to do is get a product market 
match. So, what you are doing is you are understanding the 
unique needs of your customer segment and you are designing a 
product that meets those unique needs. That is what Women's 
Business Centers have done.
    They understand what women entrepreneurs need to be 
successful. We make sure that in all of our centers we offer 
those services. So, for example, mentoring is a major part in 
most Women's Business Centers.
    That is not true for the other two programs you mentioned 
for women in that we have specialized programs specifically to 
hook women up with other women in a mentorship capacity.
    We also understand the unique training needs of women 
entrepreneurs, and there are some unique training needs 
particularly in the areas of finance and understanding 
financial statements and how to make strategic decisions.
    We found that it is really important to cater to the 
specific interests of women entrepreneurs and where they stand 
in their confidence gap because most women entrepreneurs can be 
highly successful if given the support that they need.
    So, our training is specifically designed for our target 
group. But we do partner with the other programs constantly. We 
do co-counseling. But they send to us their women entrepreneurs 
who need the ongoing business advice, they meet every week to 
talk to the business advisor that is qualified and capable of 
helping.
    So, since we are housed with SCORE and SBDC, we see the 
differences every day in the programs and how the three are 
working together to help women be successful.
    I hope that answered the question.
    Chairwoman Cantwell. Well, it is interesting that you are 
saying that SCORE is sending people to you.
    Ms. Wortberg. Yes.
    Chairwoman Cantwell. Okay. Very interesting.
    Ms. Wortberg. All the time, yes.
    Chairwoman Cantwell. Which would just point that then 
obviously SCORE is not the solution because if they are sending 
people to you, they are not the solution.
    Just if I could make sure I got this because Barbara 
Corcoran said earlier men do not necessarily relate to the 
products women are pitching. So if they do not relate to it, 
why are they going to fund it?
    But you are saying that they might not relate to mentoring 
either, that there is an amount of mentoring that needs to go 
on and that your product that you are offering with the Women's 
Business Center is more tailored to what the types of mentoring 
that are successful with women.
    Ms. Wortberg. That is absolutely true and we are pulled in 
to SBDC counseling for special issues that our women clients 
face and it is absolutely testimony to how our program is 
different that in one building we are always being called in to 
help those women clients in even if SBDC has a woman client 
they always have co-counsel.
    Chairwoman Cantwell. Can you categorize what that is? Is it 
about product? Is it about----
    Ms. Wortberg. Sometimes it is about lifestyle issues. A lot 
of women have lifestyle issues that they have to deal with in 
addition to running their company.
    Sometimes it is about understanding financial statements 
and being able to ensure that the woman is able to apply what 
she learns. Sometimes it is simply that women relate well to 
other women counselors.
    We have found that women business advisors tend to help 
other women feel safer in opening up to say we do not know, we 
need help, can you guide us. And sometimes in our situation, we 
have strong marketing backgrounds so we are asked to come in to 
counsel even on those male clients sometimes.
    Chairwoman Cantwell. That is great. Anybody else want to 
talk about that, about SCORE and its relationship with Women's 
Business Centers?
    No. Okay. I think that is all.
    Jean, do you have another question? Go ahead.
    Senator Shaheen. One of the things you mentioned, Ms. 
Galaan, is that often women do not know that these services are 
available. I am sure you hear the same thing, Victoria and Sue 
and Lynn. You probably have had similar experiences.
    So, what more can be done to make sure that women have an 
understanding of what services are available and how we 
encourage them to take advantage of Women's Business Centers? 
Hopefully if we can pass this legislation, the programs will be 
more available as a result of that.
    Ms. Wortberg. If I may, to be honest we need money. When 
you have $150,000 and you are serving 34 out of 39 counties 
with two staff people, you do not have a lot of money for 
marketing. You put all of your money into programs services.
    We cannot afford to go out and tell our story because we 
are barely paying the minimum amount to even provide services. 
That extra money will help us develop a marketing campaign to 
engage women in helping other women to grow women-owned 
businesses.
    Ms. Galaan. I am always surprised, as someone who comes 
from a marketing background, that we create all of these 
incredible programs and they are not marketed; and if they are 
marketed, they are not marketed to specific communities.
    So, it is almost like we are building a machine that no one 
knows is there, and so what is the point of that. We do need to 
market and market to specific groups in specific ways that they 
can hear that, and to make them feel like they are part of this 
country, that this is here for you and, you know, again those 
of us in sort of the private sector it is like we have got to 
become the marketing arm for these projects, and we really need 
to do that better I think.
    Senator Shaheen. Lynn.
    Ms. Sutton. Thank you. I would like to add I have utilized 
SCORE. My local SBA office in Atlanta, Georgia, has workshops 
all of the time. They are PTAC. So, I have taken advantage of 
it and I actually thought that a lot of people are aware.
    I have WIPP. We have resources. There is online. There is 
information. Women are empowered. We are at the table. We do 
know it is there.
    It is about where do we go from here. Okay. We are aware. 
What is important is that all of the hard work that you 
Senators are doing needs to be implemented. What you already 
have rolling has to be implemented and it will solve all of our 
problems.
    I am very much aware. Everyone here is very much aware. 
That is why all these women are here right now. Everyone is 
aware. What are we going to do with it? This has to be 
implemented.
    We talk about, you know, you can like, not like, whatever 
it is with the sole source, use it, do not use it. It does not 
matter. More than half of the people who have sole-source 
authority do not even get a contract in the entire time.
    What is important here is that the WOSBs and the EDWOSBs 
have the same thing the other small business programs have. We 
need access just like the 8(a) oh, the veteran, and the 
HUBZone.
    [Applause.]
    Ms. Wortberg. Absolutely.
    Ms. Sylvester. We agree.
    Senator Shaheen. So, all you WIPP members contact your 
Senators.
    Chairwoman Cantwell. Well, thank you. That is a great place 
to end. I want to make sure I thank Senator Shaheen because she 
has been a real leader on this issue and her laser focus on 
small business in general has been so helpful to the Committee 
but particularly on this sole-source issue. So, we thank you.
    We are going to put legislation together and your testimony 
has been very helpful on that front. We have heard you loud and 
clear that you need more access and that particularly by 
tailoring the training, that you could do much more.
    I am going to ask you to go away with an assignment of 
helping us. I think some of the things that people have been 
talking about hearing your testimony, we may be, let us just 
say, under, you know, targeting the amount we need.
    I would really like to know from you what amount you need 
for the Women's Business Centers and for the microloan program, 
not the package at 50 and 250 but the amount of money that 
really could go into this program and return benefits to our 
U.S. economy.
    I think upgrading it a little bit is interesting but we are 
here to ask women all across America to help grow our economy. 
That is why we are having this hearing, and you are coming to 
tell us here about the challenges that we face as we try to 
grow the economy.
    So, let us put a real number to it based on these experts 
who were here, who have been working in the field. Give us a 
number that you think really represents what microlending we 
should be doing.
    I have said many times as the Chair of this Committee I 
think small is the new big. By that I mean, the structure of an 
information economy is about people who can be very expert at 
their given field and the more that we empower them the more 
they can innovate and the more we innovate the more jobs we 
grow in our economy.
    So, we want to empower small businesses all across the 
United States and certainly we want women to be able to have 
access to those resources. We want you to be able to design 
products. Coming from Washington State, which has two female 
Senators, I can tell you that we definitely want more products 
designed and delivered for women and we know----
    [Applause.]
    We know that if women businesses are empowered to do so, 
they will design those products.
    So again, we want to thank all our witnesses today and 
everybody who helped participate in this great forum. It is so 
heartening to see so many people here. We know that in your 
real lives you will help us lead the charge on this issue. We 
do expect to have legislation on all of these fronts, sole-
source contracting, empowering women through these microloan 
increases and intermediate loans, also supporting the training 
programs and making sure that the access to capital is there.
    So, thank you all very, very much for a very moving 
afternoon and what did you call it?
    Ms. Galaan. Adelante.
    Chairwoman Cantwell. Yes. We are adjourned. Thank you.
    
    [Whereupon, at 3:55 p.m., the Committee was adjourned.]
    
                      APPENDIX MATERIAL SUBMITTED
                      
[GRAPHIC] [TIFF OMITTED] 
  

                                 [all]
</pre></body></html>
